No. 20-222

In the Supreme Court of the United States
GOLDMAN SACHS GROUP, INC., ET AL., PETITIONERS
v.
ARKANSAS TEACHER RETIREMENT SYSTEM, ET AL.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT

REPLY BRIEF FOR THE PETITIONERS
RICHARD H. KLAPPER
ROBERT J. GIUFFRA, JR.
DAVID M.J. REIN
BENJAMIN R. WALKER
JULIA A. MALKINA
JACOB E. COHEN
SULLIVAN & CROMWELL LLP
125 Broad Street
New York, NY 10004

KANNON K. SHANMUGAM
Counsel of Record
STACIE M. FAHSEL
JOEL S. JOHNSON
PAUL, WEISS, RIFKIND,
WHARTON & GARRISON LLP
2001 K Street, N.W.
Washington, DC 20006
(202) 223-7300
kshanmugam@paulweiss.com
KRISTINA A. BUNTING
SARAH J. PROSTKO
CAROLINE S. WILLIAMSON
PAUL, WEISS, RIFKIND,
WHARTON & GARRISON LLP
1285 Avenue of the Americas
New York, NY 10019

TABLE OF CONTENTS

Page
A. The decision below contravenes this
Court’s prior decisions and perpetuates
a conflict among the courts of appeals .................................. 3
B. The questions presented are exceptionally
important and warrant the Court’s review
in this case ................................................................................. 7
TABLE OF AUTHORITIES

Cases:
Allstate Corp. Securities Litigation, In re,
966 F.3d 595 (7th Cir. 2020) ....................................... 4, 5, 6
Amgen Inc. v. Connecticut Retirement Plans
& Trust Funds, 568 U.S. 455 (2013) ................................. 2
Basic Inc. v. Levinson, 485 U.S. 224 (1988) .............. passim
Finisar Corporation Securities Litigation, In re,
Civ. No. 11-1252, 2017 WL 6026244
(N.D. Cal. Dec. 5, 2017) ...................................................... 6
Halliburton Co. v. Erica P. John Fund, Inc.,
573 U.S. 258 (2014) ................................................... passim
IBEW Local 98 Pension Fund v. Best Buy Co.,
818 F.3d 775 (8th Cir. 2016) ........................................... 5, 6
Lebron v. National Railroad Passenger Corp.,
513 U.S. 374 (1995) ............................................................ 10
Levy v. Gutierrez, 448 F. Supp. 3d 46 (D.N.H. 2019).......... 6
Miller v. Thane International, Inc.,
519 F.3d 879 (9th Cir. 2008) ............................................... 3
Morgan Stanley Information Fund Securities
Litigation, In re, 592 F.3d 347 (2d Cir. 2010) ................. 9
Morrison v. National Australia Bank Ltd.,
561 U.S. 247 (2010) .......................................................... 5, 6
Stoneridge Investment Partners, LLC
v. Scientific-Atlanta, Inc., 552 U.S. 148 (2008)............... 3
Waggoner v. Barclays PLC, 875 F.3d 79 (2d Cir. 2017),
cert. denied, 138 S. Ct. 1702 (2018) ............................... 5, 6

(I)

II
Page
Rule:
Fed. R. Evid. 301 .................................................................. 6, 7
Miscellaneous:
Cornerstone Research, Securities Class Action
Filings: 2019 Year in Review (2020)
<tinyurl.com/secclassactions2019>................................. 5

In the Supreme Court of the United States
No. 20-222
GOLDMAN SACHS GROUP, INC., ET AL., PETITIONERS
v.
ARKANSAS TEACHER RETIREMENT SYSTEM, ET AL.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT

REPLY BRIEF FOR THE PETITIONERS

Respondents seek to defend the indefensible. In the
decision below, the Second Circuit held that a defendant
in a multi-billion dollar securities class action may not rebut the presumption of classwide reliance recognized in
Basic Inc. v. Levinson, 485 U.S. 224 (1988), by pointing to
the generic nature of the statements on which the claims
are based. The Second Circuit categorically precluded
that evidence on the ground that it is also relevant to the
substantive element of materiality. That holding contravenes this Court’s holding in Halliburton Co. v. Erica P.
John Fund, Inc., 573 U.S. 258 (2014), that a defendant
may rebut the Basic presumption at the class-certification
stage with any relevant evidence, even if the evidence is
also relevant at the merits stage. The Second Circuit fur-

(1)

2
ther held that a defendant seeking to rebut the Basic presumption bears the ultimate burden of persuasion,
thereby perpetuating a circuit conflict.
None of that is open to reasonable debate. Yet in their
33-page brief in opposition, respondents engage in a protracted effort to distract from the serious legal defects
and enormous practical implications of those holdings. In
particular, respondents seek to recast petitioners’ primary argument as a request for resolution at the classcertification stage of the merits issue of materiality. That
is a transparent effort to take Halliburton II out of the
equation and bring this case instead within the ambit of
Amgen Inc. v. Connecticut Retirement Plans & Trust
Funds, 568 U.S. 455 (2013).
But this case is controlled by Halliburton II, not
Amgen, and the decision below renders Halliburton II a
dead letter. As Judge Sullivan emphasized in dissent, the
majority’s approach would make class certification “all
but a certainty” in every case brought under the inflationmaintenance theory, because it effectively prevents defendants from showing a lack of price impact on the “back
end” as well as the “front end.”
Respondents also assert that there is no circuit conflict
on the burden-allocation question and that the question is
insignificant. Respondents are incorrect on both scores:
there is plainly a conflict, and the recent deepening of that
conflict demonstrates its continued significance.
Without this Court’s intervention, the errant decision
from the most important court of appeals for securities
litigation will have enormous practical consequences for
public companies, as the amicus support from across the
Nation’s economy reflects. There is no valid defense of
the decision below, and no valid impediment to this
Court’s review. The petition for a writ of certiorari should
be granted.

3
A. The Decision Below Contravenes This Court’s Prior
Decisions And Perpetuates A Conflict Among The
Courts Of Appeals

1. In Halliburton II, this Court held that courts may
not “artificially limit” the evidence a defendant may use to
rebut the Basic presumption by showing the absence of
price impact, even if such evidence “is also highly relevant
at the merits stage.” 573 U.S. at 283. The decision below
flouts that holding by barring a defendant from relying on
a vital type of evidence: the nature of the statements on
which a plaintiff’s claim is based.
a. Respondents do not confront that clear conflict
with Halliburton II; instead, they run screaming from it.
Respondents try to recharacterize the Second Circuit’s
decision as a benign application of Amgen, insisting that
the “legal” issue of materiality may not be considered as
part of the “factual” assessment of price impact. See, e.g.,
Br. in Opp. 1, 17, 18, 19-20. But petitioners are not asking
for a ruling on the merits issue of materiality. Petitioners’
submission is a more modest one concerning the scope of
the evidence on which a defendant may rely when seeking
to rebut the Basic presumption: specifically, that a defendant is entitled to point to the generic nature of the alleged misstatements as part of its showing of no price impact, even though that evidence is also relevant to the substantive element of materiality.
Respondents go so far as to reject the proposition that
the statements on which they base their claims constitute
a “form of evidence” at all. Br. in Opp. 17. That is plainly
wrong. In a securities-fraud case, statements (or omissions) are the most basic form of evidence, without which
no plaintiff could ever prove its claim. See, e.g., Stoneridge Investment Partners, LLC v. Scientific-Atlanta,
Inc., 552 U.S. 148, 157 (2008); Miller v. Thane International, Inc., 519 F.3d 879, 886-888 (9th Cir. 2008). As

4
Judge Sullivan put it, “[c]andidly, I don’t see how a reviewing court can ignore the alleged misrepresentations
when assessing price impact.” Pet. App. 44a. Here, the
statements at issue are exceptionally generic statements,
such as that “[w]e have extensive procedures and controls
that are designed to identify and address conflicts of interest” and that “[o]ur clients’ interests always come
first.” Id. at 4a. Contrary to respondents’ contention (Br.
in Opp. 18), those statements are no less “concrete evidence” than any other form of evidence used to show the
absence of price impact. Under a proper application of
Halliburton II, defendants were entitled to point to the
statements themselves, whatever their nature, in addition
to any other relevant evidence.
To the extent respondents are arguing that Amgen
bars the use of any price-impact evidence that may also be
used to establish the element of materiality (Br. in Opp.
17), that is also plainly wrong. As Judge Sullivan correctly
observed, the “rigid compartmentalization” of the evidence relevant to materiality and price impact is not “possible, much less required by” Amgen and Halliburton II.
Pet. App. 45a. To the contrary, Halliburton II made clear
that evidence pertaining to a “prerequisite” for invoking
the Basic presumption, such as loss causation or materiality, can be used to show lack of price impact. See 573
U.S. at 281-284. As a recent Seventh Circuit panel explained in an opinion written by Judge Hamilton (joined
by Judge Kanne and then-Judge Barrett), a court may not
refuse to consider price-impact evidence simply because
“the same evidence is likely to have obvious implications
for the off-limits merits issues of materiality and loss causation.” In re Allstate Corp. Securities Litigation, 966
F.3d 595, 608 (2020). Exactly so.

5
b. Respondents further contend (Br. in Opp. 16) that
the Court should deny review on the first question presented because of the absence of a clear circuit conflict.
But consistent with Rule 10(c), the Court frequently
grants review—including several times this Term alone—
when a lower-court decision conflicts with a decision of
this Court on an important question. See, e.g., FCC v.
Prometheus Radio Project, No. 19-1231, cert. granted,
2020 WL 5847134 (Oct. 2, 2020); United States Fish and
Wildlife Service v. Sierra Club, Inc., No. 19-547, cert.
granted, 140 S. Ct. 1262 (2020); Tanzin v. Tanvir, No. 1971, cert. granted, 140 S. Ct. 550 (2020).
Review on such a question is especially appropriate
where, as here, the decision below is from the preeminent
court of appeals on the subject matter. Cf. United States
v. Arthrex, Inc., No. 19-1434, cert. granted, 2020 WL
6037206 (Oct. 13, 2020). The Second Circuit has hosted
more than one in every three securities class actions since
2017, see Cornerstone Research, Securities Class Action
Filings: 2019 Year in Review 38 (2020) <tinyurl.com/secclassactions2019>, and this Court has recognized its
strong influence on other courts, see, e.g., Morrison v. National Australia Bank Ltd., 561 U.S. 247, 260 (2010).
2. In any event, the Second Circuit’s decision implicates a conflict among the courts of appeals on the second
question presented: namely, whether a defendant seeking to rebut the Basic presumption bears only a burden of
production or also the burden of persuasion. Compare
IBEW Local 98 Pension Fund v. Best Buy Co., 818 F.3d
775, 782 (8th Cir. 2016), with Waggoner v. Barclays PLC,
875 F.3d 79, 103 n.36 (2d Cir. 2017), cert. denied, 138 S. Ct.
1702 (2018), and Allstate, 966 F.3d at 610. In that respect,
the petition in this case is exactly like the petition in Halliburton II—which also presented two important questions for this Court’s review, only one of which implicated

6
a circuit conflict. See Halliburton II, supra, No. 13-317,
cert. granted, 571 U.S. 1020 (2013).
a. Respondents contend that there is no conflict on
the second question (Br. in Opp. 27-29), parroting the Second Circuit’s characterization of the relevant language in
IBEW as mere dictum. See Waggoner, 875 F.3d at 103
n.36. That is incorrect. In IBEW, the Eighth Circuit unambiguously applied Federal Rule of Evidence 301, which
places only the burden of production on the defendant.
See 818 F.3d at 782. The Eighth Circuit’s decision has
widely been understood to establish a legal rule that the
plaintiff bears the ultimate burden of persuasion on the
Basic presumption, see Pet. 23 (citing cases), and that
rule will govern future cases in that circuit.
Contrary to respondents’ suggestion that it is somehow “awkward” for petitioners to rely on the conflict on
the second question (Br. in Opp. 16), the way in which that
conflict has emerged illustrates just how other courts tend
to “defer[]” to the Second Circuit in the securities context.
See Morrison, 561 U.S. at 260. After the Eighth Circuit
first addressed the question in IBEW, the Second Circuit
reached its contrary conclusion in Waggoner. Since then,
the Seventh Circuit and multiple district courts have followed the Second Circuit with little analysis of their own.
See Allstate, 966 F.3d at 610; see also, e.g., Levy v.
Gutierrez, 448 F. Supp. 3d 46, 57, 63 (D.N.H. 2019); In re
Finisar Corporation Securities Litigation, Civ. No. 111252, 2017 WL 6026244, at *6 (N.D. Cal. Dec. 5, 2017).
That history reflects the Second Circuit’s outsized influence on securities law and underscores the need for the
Court’s intervention on the questions presented.
b. Respondents’ argument on the merits of the second question is also deeply flawed. Respondents concede
that Rule 301 “provides a default rule that applies when
the law does not otherwise establish what a party must

7
prove to overcome a presumption.” Br. in Opp. 30-31. But
rather than point to any “federal statute” that overrides
the default rule that the plaintiff bears the burden of persuasion (as Rule 301 requires), respondents insinuate that
this Court resolved the issue in Halliburton II. See id. at
29-30. The Court plainly did not do so, and respondents’
aggressive reading of Halliburton II cannot be squared
with their cramped reading of the Eighth Circuit’s decision in IBEW (which, unlike Halliburton II, actually addressed Rule 301). When it comes to the language of Rule
301, respondents have nothing to say. Because no “federal statute” “provide[s] otherwise,” the Second Circuit
should have held that respondents, not petitioners, bore
the ultimate burden of persuasion. The conflict on that
question warrants the Court’s review.
B. The Questions Presented Are Exceptionally Important
And Warrant The Court’s Review In This Case

1. If the decision below is permitted to stand, it will
have devastating practical consequences for public companies facing securities class actions premised on the inflation-maintenance theory—an increasingly popular
plaintiff-friendly theory that this Court has never endorsed. The Second Circuit’s distortion of the Basic
framework creates a near-automatic path to class certification in inflation-maintenance cases: securities plaintiffs
need only identify public allegations of company misconduct and, after the stock price goes down, assert that the
stock price had been improperly “maintained” by generic
statements of the sort that virtually all companies make.
See SIFMA Br. 6-7 (listing similar statements from Fortune 500 companies). That is particularly troubling given
that the vast majority of securities class actions—especially inflation-maintenance actions—settle before summary judgment. See RLC Br. 8-10.

8
Respondents attempt to sidestep those real-world
consequences, saying next to nothing about the inflationmaintenance theory. Respondents’ efforts to minimize
the importance of the questions presented are unavailing.
a. To begin with, respondents’ repeated assertions
that the questions presented have “no recurring importance” (Br. in Opp. 21, 31) are belied by the numerous
amici curiae that support the petition in this case—as well
the numerous amici that supported respondents before
the Second Circuit. As petitioners’ amici point out, many
securities class actions settle following class certification
on the basis of generic and aspirational statements like
the ones at issue here. See Society for Corporate Governance Br. 11-12. And the volatility in the markets during
the ongoing COVID-19 pandemic creates a “heightened”
risk of such lawsuits: many companies will face the prospect of securities class actions after drops in their stock
prices if their generic statements can be “weaponized”
against them. See Former SEC Officials and Law Professors Br. 12-13. The practical significance of the questions
presented here thus cannot be overstated.
b. Respondents wrongly suggest that, if the decision
is permitted to stand, defendants would still have “fulsome opportunities” to avoid class certification on the basis of generic and aspirational statements. Br. in Opp. 21.
Respondents first contend (Br. in Opp. 21-22) that the
opportunity to move to dismiss for lack of materiality is
an adequate safeguard. That proves too much: if it were
true, it would preclude any price-impact evidence that
overlaps with a merits issue, whether that issue is materiality, loss causation, or something else. The introduction
of such evidence is precisely what Halliburton II permits
at the class-certification stage. And as any experienced
securities litigator knows, because the element of materiality often “presents a mixed question of law and fact,” it

9
“rarely [is] dispositive in a motion to dismiss.” In re Morgan Stanley Information Fund Securities Litigation, 592
F.3d 347, 360 (2d Cir. 2010). At the class-certification
stage, by contrast, a defendant is free to point to any evidence tending to show the absence of price impact—including evidence of the generic nature of the alleged misstatements.
Respondents next argue (Br. in Opp. 22-23) that the
Second Circuit’s approach would still account for instances in which generic and aspirational statements in
fact have no price impact. That argument completely ignores that, unlike in a conventional securities class action,
a defendant in an inflation-maintenance case cannot rebut
the Basic presumption with evidence that the price did
not increase on the “front end” as a result of the alleged
misstatement. The Second Circuit’s decision effectively
strips defendants of any meaningful defense on the “back
end” as well, artificially narrowing the scope of permissible evidence of the absence of a price impact and thereby
rendering certification “all but a certainty” in inflationmaintenance cases. Pet. App. 44a (Sullivan, J., dissenting).
c. Respondents further assert that the difference between the burden of production and the ultimate burden
of persuasion “rarely matters” in securities class actions.
Br. in Opp. 31. But as a general matter, that distinction—
a familiar one in the law—was plainly significant enough
for Rule 301 to draw it. Respondents have identified no
reason why it would be any less significant in the securities context. And the fact that the circuit conflict on the
burden-allocation question continues to grow illustrates
that the distinction matters.
2. This case is an optimal vehicle for the Court’s review of the questions presented. Respondents’ contrary
arguments lack merit.

10
a. Respondents bizarrely claim (Br. in Opp. 24-25)
that petitioners forfeited the argument that a defendant
can point to the generic nature of the alleged misstatements as evidence to show the absence of price impact.
Yet petitioners extensively briefed the issue before the
district court and the court of appeals, relying on the generic and aspirational nature of the statements and on additional evidence in rebutting the Basic presumption. See
Pet. 11, 13; Pet. C.A. Br. 43-49; Pet. C.A. Reply Br. 18-28.
At oral argument, moreover, counsel for petitioners expressly stated that the court of appeals should not “ignore
what the statements say,” because “[t]he statements are
evidence” that “needs to be considered.” C.A. Oral Arg.
Tr. 28-29. In any event, the court of appeals addressed
the question at length in both the majority and dissenting
opinions. Pet. App. 19a-27a, 44a-45a; see Lebron v. National Railroad Passenger Corp., 513 U.S. 374, 379 (1995)
(noting that an issue pressed or passed upon below is preserved for this Court’s review).
b. If petitioners had been permitted to rely on the generic nature of the statements at issue, the outcome would
have been different: as Judge Sullivan correctly noted,
that evidence provides the “obvious explanation” for the
lack of a price decline in response to the numerous press
reports concerning the alleged conflicts of interest. Pet.
App. 44a-45a. Resisting that reality, respondents accuse
petitioners of “ignor[ing]” a statement made in response
to a New York Times article. Br. in Opp. 25. But respondents did not base their motion for class-certification on
that statement; accordingly, the Second Circuit did not
rely on it. See Pet. App. 4a-5a.
c. Finally, and contrary to respondents’ peculiar assertion (Br. in Opp. 32), the district court did not effectively impose the burden of persuasion on respondents

11
simply by starting its analysis with an assessment of respondents’ evidence, rather than petitioners’ evidence.
The district court expressly required petitioners to “bear
the burden of persuasion to rebut the Basic presumption
by a preponderance of the evidence.” Pet. App. 50a (internal quotation marks and citation omitted). And as the
Second Circuit explained, the order in which the district
court considered the parties’ evidence did “not obscure”
that the court had placed the ultimate burden of persuasion on petitioners. Id. at 32a n.19. Indeed, in concluding
that petitioners had not rebutted the Basic presumption,
the Second Circuit heavily relied on that allocation; if the
burden of persuasion had been correctly allocated, this
would have been an easy case. See Pet. 23-24.
*

*

*

*

*

This is an extraordinarily important case, not only for
petitioners (who are facing a potential $13 billion in damages) but for other public companies facing securities
class actions. The Second Circuit’s reasoning cannot be
defended. And such a deeply flawed decision from the
preeminent court of appeals for securities litigation cannot be allowed to stand. The petition for a writ of certiorari should be granted.

12
Respectfully submitted.
RICHARD H. KLAPPER
ROBERT J. GIUFFRA, JR.
DAVID M.J. REIN
BENJAMIN R. WALKER
JULIA A. MALKINA
JACOB E. COHEN
SULLIVAN & CROMWELL LLP
125 Broad Street
New York, NY 10004

KANNON K. SHANMUGAM
STACIE M. FAHSEL
JOEL S. JOHNSON
PAUL, WEISS, RIFKIND,
WHARTON & GARRISON LLP
2001 K Street, N.W.
Washington, DC 20006
(202) 223-7300
kshanmugam@paulweiss.com
KRISTINA A. BUNTING
SARAH J. PROSTKO
CAROLINE S. WILLIAMSON
PAUL, WEISS, RIFKIND,
WHARTON & GARRISON LLP
1285 Avenue of the Americas
New York, NY 10019

NOVEMBER 2020

